   OFFICE     OF    THE   INSPECTOR
                                        1
                                      GENERAL




                        SEMIANNUAL
                                        9
                                       REPORT




APRIL   1,   1998   ~   SEPTEMBER
                                        9
                                      30,   1998




                                        8
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA) Board
of Directors and Congress on the
overall efficiency, effectiveness, and
economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.


The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations; and
(3) inefficiencies in TVA programs and
operations.


If you want to report any matter
involving TVA programs, operations, or
employees, you should call the OIG
Hotline or write the Inspector General's
office.




               TVA
               TVA
                                            Call toll free:
               INSPECTOR
                                            1-800-323-3835
               GENERAL                      423-632-3550 (Knoxville)


                           n e
                      t li                  Tennessee Valley Authority
                                            400 West Summit Hill Drive ET 4C


                  H o                       Knoxville, Tennessee 37902-1499
Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1499




George T. Prosser
Inspector General



October 30, 1998




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

This, our 25th semiannual report, describes the accomplishments of our office for the six-month period
ending September 30, 1998.

During this reporting period, we completed 27 audits which identified almost $1.8 million in questioned
costs and more than $200,000 in funds that could be used more effectively. Our auditors conducted
performance reviews of TVA operations and contract preaward and compliance audits. We also
conducted 11 special projects, which identified over $14.7 million in potential savings.

Our investigations group completed 81 investigations, substantiating allegations in over 34 percent of the
cases we investigated. During this reporting period, our investigations resulted in over $3.6 million in
savings and recoveries, five subjects indicted, and nine subjects convicted. Further, as a result of our
investigations of alleged misconduct, administrative and disciplinary action was taken against 22
individuals, and management took additional corrective action in 8 cases.

During this reporting period, I noted with interest the congressional hearings on the Inspector General
Act. Those hearings illustrated the continuing needs for Inspectors General, and the significant results
we are achieving. Congress’ foresight in creating Inspectors General has provided lasting benefits to
the federal government, including TVA. I am proud of the accomplishments of the Inspector General
community and look forward to continuing our work as we move into the next century.

Sincerely,



George T. Prosser




                                                           SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
                                                                                                     CONTENTS              ■




1    Executive Summary                               8    Audits
                                                                                                           OFFICE OF THE
                                                                                                           INSPECTOR
2    TVA Profile                                     12 Investigations                                     GENERAL

                                                                                                           SEMIANNUAL
3    Office of the Inspector General                 20   Special Projects                                 REPORT

                                                                                                           APRIL 1 THROUGH
5    Special Feature
                                                                                                           SEPTEMBER 30, 1998




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending September 30, 1998
    2. OIG's Report on Management Decisions for the Six-Month Period Ending September 30, 1998
    3. Investigative Referrals and Prosecutive Results
    4. TVA Management's Report on Final Actions for the Six-Month Period Ending September 30, 1998
    5. OIG Reporting Requirements




                                                                    SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
■    EXECUTIVE              SUMMARY




                      We continued our efforts to support          We also conduct special project reviews
                      TVA’s goals by providing quality service     of high-profile issues as requested by
                      with audits, investigations, and special     our customers, primarily the Board of
This report           projects. We completed 27 audits             Directors, TVA executive management,
summarizes the        which identified almost $1.8 million in      and the Congress. During this reporting
                      questioned costs and more than               period, the areas we reviewed included
activities and
                      $200,000 in funds that could be used         the Investment Recovery operations,
accomplishments       more effectively. Eleven special projects    the Visa Gold Card program, a
of TVA's OIG          identified over $14.7 million in potential   $24.7 million uranium mill reclamation
                      savings. We closed 81 investigations         claim, and fuel used by the ridesharing
during the six-
                      which led to over $3.6 million in savings    program. We also participated on
month period          and recoveries. Investigations of alleged    TVA’s Supply Chain Redesign Team.
                      misconduct led to administrative and
ending
                      disciplinary action taken against 22         Our investigative activities included
September 30,         individuals and other corrective action in   inquiries into environmental crimes,
                      8 cases.                                     criminal misuse of TVA economic
1998.
                                                                   development funds, workers’ compen-
                      Our audit activities included perfor-        sation fraud, contractors’ fraudulent
                      mance reviews of TVA programs,               claims for temporary living expenses,
                      processes, and systems, as well as           nuclear-related issues, health-care
                      compliance and preaward audits of TVA        overpayments, and employee miscon-
                      contractors. Representative audits           duct. One investigation led to a former
                      include reviews of Transmission and          TVA senior executive and a contractor
                      Power Supply’s overtime policy, a            being indicted on 20 counts of mail
                      contractual arrangement to provide           fraud. Other investigative results include
                      procurement assistance to small              a conviction of a husband and wife for
                      businesses, selected contracts, controls     workers’ compensation fraud and
                      on access security in an ADP system,         various findings of misconduct.
                      and one of the fiscal year 1999 perfor-
                      mance goals submitted in accordance
                      with the Government Performance and
                      Results Act of 1993.




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                   TVA        PROFILE              ■




                                       Bowling Green
                                                        •

                                                                                           •
                                                                                        Bristol


                                               •                            Knoxville
                                            Nashville
                                                                            •
                         Jackson
                           •
                                                                                                                 TVA's 13,818
             Memphis
            •                                               Chattanooga
                                                            •                                                    employees serve
                                              Huntsville
                                     •
                                   Muscle          •
                                   Shoals

                       Columbus
                                                                                                                 an 80,000-square-
                               •
                                                                                                                 mile region

                                                                                                                 spanning seven

                                                                                                                 states.




TVA is a federal corporation responsible                        Craven Crowell is the Chairman, and
for developing and conserving the natural                       Johnny H. Hayes and William H.
resources of the Tennessee River Valley.                        Kennoy are Directors.

TVA's 13,818 employees are involved in                          TVA’s goals are Customer Driven,
regional development, integrated re-                            Employee Sensitive, Environmentally
source management, and the produc-                              Responsible, and Growth Oriented.
tion of low-cost electricity. The power                         TVA’s vision is “to be the recognized
system is funded by power sales, and                            world leader in providing energy and
TVA's other programs are funded                                 related services, independently and in
primarily by congressional appropriations.                      alliances with others, for society’s global
                                                                needs.”
TVA is governed by a three-member
Board of Directors appointed by the
President and confirmed by the Senate.




                                                                          SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998     2
■   OFFICE         OF      THE           INSPECTOR               GENERAL




                     Organization                                 Office Authority
                     The OIG’s Audit Operations unit consists     The TVA Board of Directors administra-
                     of three operational departments. One is     tively established the OIG during
                     devoted to contract-related topics, both     October 1985. During its early years of
                     preaward and post award reviews; the         operation, the OIG operated much like
                     two other departments focus on perfor-       its statutory counterparts and exercised
                     mance, financial, ADP-related issues, and    subpoena powers granted by a provision
                     special projects.                            in a TVA appropriations bill. When
                                                                  Congress enacted the Inspector
                     The OIG’s Investigative Operations unit      General Act Amendments of 1988,
                     consists of an investigative services and    TVA's OIG became one of the statutory
                     hotline group and two investigative          offices whose Inspector General is
                     departments. While both departments          appointed by the agency head. TVA's
                     work a variety of cases, including           Inspector General is independent and
                     employee integrity and environmental         subject only to the general supervision of
                     issues, one department focuses on            the Board of Directors.
                     contract and workers’ compensation
                     cases, while the other focuses on            George T. Prosser became TVA’s third
                     nuclear issues and benefits and entitle-     Inspector General on April 1, 1994.
                     ment programs.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                O F F I C E    O F      T H E   I N S P E C T O R   G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA head-                   The OIG's fiscal year 1998 budget is
quarters in Knoxville, Tennessee. The                    about $7.3 million, and during this
OIG also has investigative satellite offices             reporting period, the OIG had
in Chattanooga, Tennessee, and Hunts-                    83 employees.
ville, Alabama.



                            OFFICE OF THE INSPECTOR GENERAL


                                        INSPECTOR GENERAL

                                                  ■

                                           George T. Prosser


                                                                                  Manager
     Legal Counsel                                                            (Human Resources)

            ■                                                                           ■
      Richard P. Levi                                                            Kay T. Myers




                      Assistant                                         Assistant
                  Inspector General                                Inspector General
                       (Audits)                                      (Investigations)
                          ■                                                 ■
                        Ted R. Ping                                G. Donald Hickman


                    ■ Contract                                        ■ Financial
                      Audits                                            Investigations
                      Ben R. Wagner                                     James M. Reed
                      Manager                                           Manager
                    ■ Financial and                                   ■ Internal
                      ADP Audits                                        Investigations
                      Deborah Meyers Thornton                           Ron W. Taylor
                      Manager                                           Manager
                    ■ Operational Audits                              ■ Investigative
                      and Special                                       Services and
                      Projects                                          Hotline
                      Lewis M. Ogles
                      Manager
                    ■ OIG ADP and
                      Audit Quality
                      James L. Sweet
                      Coordinator




                                                               SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998            4
■   SPECIAL FEATURE




                     ENVIRONMENTAL CRIMES JOINT                                                       Tennessee Department of Environment
                     TASK FORCE (ECJTF)
                                                                                                      and Conservation. During the 1990s,
                     The ECJTF’s mission is to (1) focus                                              this informal group grew in size to
                     enhanced law enforcement resources                                               include other federal law enforcement
                     against individuals and companies                                                agencies. The increased resources
                     involved in environmental crimes and                                             enabled the group to investigate and
                     (2) prosecute those individuals and                                              prosecute more cases with correspond-
                     companies by applying the most                                                   ing successes. These successes built a
                     effective federal and state criminal and                                         momentum which resulted in the
                     civil statutes. The ECJTF grew out of                                            current task force with 16 different state
                     an awareness of pollution problems in                                            and federal agencies and a history of
                     East Tennessee and informal coopera-                                             significant prosecutions. Highlights of
                     tion between the Department of Justice                                           the investigative results during this
                     (DOJ) Environmental Crimes Section,                                              reporting period include the following.
                     the U.S. Attorneys’ Office, the Federal
                     Bureau of Investigation (FBI), and the




                      Members of the Environmental Crimes Joint Task Force are from left to right   right: (standing) Special Agent Bruce Harkleroad (FBI), Assistant
                      U.S. Attorney Guy Blackwell (Eastern District of Tennessee), Special Agent Roger Holland (DCIS), Assistant U.S. Attorney John MacCoon (Eastern
                      District of Tennessee), Special Agent Bob Gibson (FBI), Special Agent Joe Boehr (TVA OIG), Supervisory Special Agent Gary Steed (FBI), Special
                      Agent Dennis Daniels (TBI), and Special Agent Andy Derryberry (TVA OIG) (sitting
                                                                                                 (sitting) Special Agent Joe Cole (EPA CID), Special Agent in Charge Jim
                      Johnson (EPA CID), Special Agent Randall Kizer (DOE OIG), Departmental Attorney Sprightly Ryan (DOJ), and Attorney Betty Obenshain (EPA CID)




5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                        SPECIAL FEATURE




■   A family owned business contracted        ■   A certified wastewater plant operator,
    with Arnold Engineering Development           responsible for operation of several
    Center (AEDC)—located at Arnold Air           wastewater treatment plants in
    Force Base, Tullahoma, Tennes-                Greene and Cocke counties (Ten-
    see—to collect and dispose of                 nessee) was required to conduct
    grease waste. Investigation revealed          sampling and testing to ensure
    the company’s owner directed his              compliance with the National
    employees to illegally discharge              Pollutant Discharge Elimination
    grease waste into a manhole at a              System permits for each plant. He
    shopping center in nearby Winches-            was also required to submit monthly
    ter, Tennessee. (Samples taken                operating reports to the Tennessee
    from the disposal site were deter-            Department of Environment and
    mined, through spectroscopic                  Conservation (TDEC). The ECJTF’s
    analysis, to be identical to grease           inquiry revealed he submitted false
    collected at AEDC.) The owner pled            reports to TDEC. The individual
    guilty to violating the Clean Water Act       certified on the reports he sampled
    and was sentenced to five months’             and tested water when, in fact, he
    imprisonment followed by one year of          was not physically at the plants. As
    supervised probation, which will              a result of the task force investiga-
    include five months’ home detention.          tion, the individual pled guilty to
    Additionally, the individual was              violating Tennessee state law by
    ordered to pay $9,890 in restitution to       falsifying data he submitted to TDEC.
    the Winchester Utility System.
■   An individual doing business as a
    hazardous waste and used oil
    transporter illegally discharged waste
    oil into U.S. waters in Bradley
    County, Tennessee. The individual
    pled guilty to violating the Clean
    Water Act and is awaiting sentenc-
    ing. (The plea agreement stipulates
    the individual will permanently cease
    operation of his waste oil pumping
                                                             FBI Special Agent Bob Gibson addressing a recent
    service.)                                                 Task Force meeting in Chattanooga, Tennessee.




                                                     SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998             6
SPECIAL FEATURE




                        He was ordered to pay a $1,000 fine        aggressive and quality prosecutions, a
                        and was sentenced to 12 months’            stronger state enforcement program,
                        confinement (9 months’ suspended           increased environmental awareness,
                        after serving 90 days) and 1 year          and a cleaner and safer environment
                        probation.                                 now and for the future.” We are proud
                                                                   to be a member of this task force.
                     Assistant U.S. Attorney Guy Blackwell
                     summarized the work of the task force
                     as follows.

                     “Investigating environmental crimes is
                     time and manpower intensive. It
                     involves hazardous and radioactive
                     waste and pollutants, often fraud and
                     false statements, and by its very nature
                     includes an active concealment. Issues
                     are often complex, and cases can turn
                     on the interpretation or application of a
                     regulation or a scientific principle or
                     protocol. Prosecutive successes have
                     been measured by the collective efforts
                     of each member of the task force.
                     Whether assembling teams for a
                     surveillance, executing a search
                     warrant, sharing expertise and re-
                     sources, or planning proactive initiatives,
                     the task force has been the most
                     effective way to attack environmental
                     criminals. In the Eastern District of
                     Tennessee, the focus is on the sum of
                     the parts, not an individual agency,
                     agent, or lawyer. The collective goal is




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                         AUDITS          ■




Audits are initiated from (1) the OIG       effective in reducing overtime costs.
annual workplan, (2) issues identified by   We found that (1) overtime costs
the OIG subsequent to the annual            decreased about 66 percent from
workplan, (3) issues identified by coop-    $3.6 million to $1.2 million, (2) overtime
erative efforts with TVA management, or     reduction did not appear to negatively
(4) concerns raised by TVA management       affect TPS’s operational performance,
or others. During this reporting period,    and (3) total labor costs decreased only
we issued 27 audit reports which            slightly due to increased labor rates and
identified almost $1.8 million in ques-     bonuses. Based on the results of our
tioned costs and more than $200,000 in      samples, we concluded that TPS’s
funds which could be put to better use      employees generally complied with the
(see Appendix 1).                           overtime policy with some minor
                                            exceptions.
Summary of
Representative Audits                       IMPROVEMENTS RECOMMENDED
                                            IN PROCUREMENT ASSISTANCE
                                            PROGRAM
Our audits included performance reviews
of TVA programs, processes, and             TVA contracted with a non-profit
systems, as well as compliance and          organization to provide (1) contract
preaward audits of TVA contractors.         procurement assistance to small
                                            businesses and manufacturers and
EFFICIENCY IN CONTROLLING
                                            (2) special assistance and encourage-
OVERTIME COSTS ACHIEVED
                                            ment to minority- and woman-owned
On July 1, 1997, TVA’s Transmission         firms in contracting with government
and Power Supply (TPS) implemented          prime contractors. Under the terms of
an overtime policy to better manage         the contract, TVA provided technical
and control overtime costs. At the          assistance and contributed $125,000 to
request of TPS management, we               the contractor annually. Our audit
assessed (1) the effectiveness of the       covered the period October 1, 1994
policy in reducing overtime costs and       through September 30, 1997. Although
(2) compliance with the policy. Our         TVA contracted with a specific contrac-
review covered the period July 1            tor, all contract responsibilities and
through December 31, 1997, and              financial transactions were handled by
included comparisons with the period        another organization. We found several
July 1 through December 31, 1996. In        deficiencies in contract administration
our opinion, TPS’s overtime policy was



                                                  SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998   8
A U D I T S




                     attributable to both the contractor and     TVA management and the firm agreed
                     TVA, including concerns about (1) which     with our findings.
                     organization performed under the
                                                                 CONTROLS OVER ADP SYSTEM
                     contract, (2) closure of the separate
                                                                 COULD BE STRENGTHENED
                     interest bearing bank account,
                     (3) workplans and budgets, and              TVA’s Business Information Delivery

                     (4) compliance with the Single Audit Act    System (BIDS) is a web-based applica-

                     of 1984. We also questioned certain         tion that processes financial and non-

                     expenses that were not adequately           financial information from the Interactive

                     supported by the contractor’s records       Variance Reporting System and other

                     or incurred for project purposes. The       TVA information systems into report

                     contractor and TVA management               formats. BIDS controlled its access

                     agreed with our recommendations and         security through computer software

                     are taking steps to correct the             using identifications and passwords. We

                     deficiencies.                               found the controls surrounding BIDS
                                                                 need to be improved to adequately
                     OPPORTUNITIES FOR                           protect TVA against inappropriate
                     IMPROVEMENT IN
                                                                 disclosure of sensitive information.
                     ADMINISTRATION OF CONSULTING
                                                                 Specifically, we found the following
                     CONTRACTS
                                                                 controls need improvement: (1) access
                     TVA paid almost $6.9 million to a
                                                                 authorization and periodic review
                     consulting firm under six consulting
                                                                 processes and (2) written procedures for
                     contracts since 1988 to provide mana-
                                                                 both the above processes. TVA
                     gerial assessments and guidance on
                                                                 management has agreed to implement
                     human resource issues. We estimated
                                                                 the recommendations.
                     the firm has performed at least 900
                     assessments of TVA employees and            $5 MILLION CONSTRUCTION
                     employee candidates. Our review of          CONTRACT REVIEWED
                     four of the contracts with payments         TVA entered into a three-year partnering
                     totaling almost $5.6 million found the      agreement for the performance of
                     following: (1) nearly $30,000 for assess-   construction and modifications work for
                     ments, other labor services, and travel     TVA generating plant switchyards,
                     which were not paid in accordance with      substations, electrical transmission
                     the contract terms; and (2) opportunities   system, and other TVA facilities. We
                     for improvement in contract                 assessed whether the contractor
                     administration.



9   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                A U D I T S




complied with the cost provisions            1996 disclosed questioned costs
involving equipment and material             totaling over $900,000. We also found
charges under the contract from              potential problems concerning living
March 14, 1996 through March 13,             expense reimbursements which were
1997, by reviewing about $2.6 million of     referred to OIG investigators for further
the $5 million in billings. We identified    review. TVA management plans to
net overbillings and unnecessary sales       pursue recovery of the amounts
tax expense on third-party equipment         questioned.
rentals. Based on our sample results,
                                             FOSSIL PLANT EQUIVALENT
we estimated the total overbillings and
                                             AVAILABILITY FACTOR FOUND TO
unnecessary sales taxes for the period       BE RELIABLE
in question exceeded $200,000. TVA
                                             The Government Performance and
management agreed to pursue (1) re-
                                             Results Act of 1993 (GPRA) requires
covery of the overbillings and (2) a
                                             government agencies to report planned
solution to avoid unnecessary taxes.
                                             performance goals, expressed with
NUCLEAR ENGINEERING                          performance indicators. TVA submitted
CONTRACT REVIEWED                            26 performance goals for fiscal year
We assessed whether the contractor           1999. Proposed GPRA changes may
complied with the cost provisions of         require agency OIGs to verify and
contracts for startup engineering and        validate selected data sources and
time and material tasks at TVA’s Watts       information systems used to support
Bar Nuclear Plant (WBN). Of the              performance reports and strategic
$20.2 million paid for these tasks, we       plans. One performance goal submit-
identified less than $100,000 in             ted for fiscal year 1999 was the Fossil
overbillings. TVA management agreed          Plant Equivalent Availability Factor
to pursue recovery of these overbillings.    (EAF). TVA uses the EAF as a mea-
                                             sure of customer service performance.
$39 MILLION NUCLEAR DESIGN AND               We reviewed the process used by TVA
ENGINEERING CONTRACT
                                             to calculate the EAF indicator and the
REVIEWED
                                             systems that provide source data for
Our review of a contractor’s costs           the calculation. We found TVA’s EAF
totaling $39 million billed for design and   calculation could be relied upon to
engineering services at WBN during the       accurately indicate the EAF of TVA’s
period November 1994 through April           fossil (coal-fired) plants.




                                                   SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998   10
A U D I T S




                                       UNRESOLVED AUDIT REPORTS WHICH WERE
                                           ISSUED PRIOR TO APRIL 1, 1998

                        Listed below are audit reports we issued before this reporting period began and for
                        which no management decision was made by September 30, 1998.

                          Date      Audit                                    Why Management Decision
                         Issued    Number           Report Title               Has Not Been Made

                         There were no audit reports in this reporting category as of September 30, 1998.




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                        INVESTIGATIONS                     ■




During the last six months, we substan-       (2 counts). The individual pled guilty to
tiated allegations in 28 of the 81 investi-   all ten counts and is awaiting
gations we closed—over 34 percent.            sentencing.
Our investigations resulted in over
$3.6 million in savings and recoveries,       In a second case, our investigation

five subjects indicted, and nine subjects     revealed a treasurer of a Western

convicted. Representative investiga-          Kentucky economic development

tions are highlighted below.                  agency embezzled funds from a
                                              $100,000 TVA grant. Prior to our
Summary of                                    investigation, the individual paid the
Representative                                economic development agency $10,000
Investigations                                for questioned expenditures. Our
                                              inquiry, however, uncovered an inappro-
MISUSE OF TVA FUNDS                           priate diversion of $29,225 from the
With the FBI and Kentucky State Police,       grant by the former treasurer. As a
we investigated an allegation that the        result of our investigation, the individual
former executive director of a Kentucky       pled guilty to theft of government
non-profit corporation misappropriated        property. A federal judge ordered the
several thousand dollars. The corpora-        individual to pay an additional $19,225 in
tion—which managed a bond-                    restitution to TVA and sentenced him to
assurance fund to assist minority and         five years’ probation, which includes
female contractors—received contribu-         eight months’ home detention.
tions from various federal, state, and
                                              In a third case, as a result of our
local government agencies, including
                                              investigation, a former senior TVA
$100,000 from TVA. As a result of our
                                              executive and a former TVA contractor
investigation, a grand jury charged the
                                              were indicted by a federal grand jury on
former executive director with fraudu-
                                              20 counts of mail fraud related to
lently obtaining over $700,000 and
                                              contracts for a quality management
money laundering in excess of $100,000
                                              program provided by the contractor.
from the fund. The grand jury indicted
                                              (The senior executive resigned his TVA
the individual on the following charges:
                                              position during August 1998.)
bank fraud (1 count), money laundering
(7 counts), and criminal forfeiture




                                                    SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998   12
I N V E S T I G A T I O N S




                         According to the indictment:                  FALSE CLAIMS - TEMPORARY
                                                                       LIVING EXPENSES (TLE)
                         ■    The contractor had never developed       We continued our efforts to reduce TVA
                              a quality training program prior to      contract costs by identifying fraudulent
                              entering the TVA contract and had        and ineligible TLE paid to TVA contrac-
                              no educational background in quality     tors. During this reporting period, our
                              management systems. When the             investigations led to recoveries of over
                              executive directed that TVA enter the    $200,000. Specifically,
                              initial contract, the contractor was a
                              full-time employee of another power      ■   A former Bechtel Power Corporation
                              company and did not have a consult-          contractor employee at Browns Ferry
                              ing company or any employees.                Nuclear Plant (BFN) entered into a
                         ■    The two individuals schemed to               settlement agreement in connection
                              defraud TVA of money by means of             with alleged fraudulent TLE claims.
                              false and fraudulent representations,        As a result of the settlement, the
                              which included the contractor                former contractor employee will pay
                              plagiarizing quality management              the United States $125,000. TVA will
                              training material with the executive’s       receive $99,642, which is the
                              knowledge.                                   disputed amount of TLE the individual
                         ■    TVA was the contractor’s only client;        received. The individual was allowed
                              and between July 1991 and February           into a federal pretrial diversion
                              1997, TVA paid the contractor                program.
                              approximately $3.6 million under five    ■   A former Performance Controls
                              separate contracts.                          Company contractor employee at
                                                                           BFN entered into a settlement
                         A trial date in U.S. District Court is
                         pending.




13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                            I N V E S T I G A T I O N S




    agreement in connection with alleged     FALSE CLAIMS - OFFICE OF
                                             WORKERS’ COMPENSATION
    fraudulent TLE claims. Under the
                                             PROGRAM (OWCP)
    terms of the agreement, the indi-
    vidual paid the United States            During this reporting period, our Federal
    $25,960. (The disputed amount of         Employees’ Compensation Act fraud
    TLE the individual received is           investigations led to recoveries and long-
    $17,306.)                                term savings of over $1.4 million.
■   Two former United Energy Services        Highlights of those investigative results
    Corporation contractor employees at      follow.
    WBN were sentenced for fraudulently
                                             ■   Investigation revealed a former
    obtaining TLE as follows.
                                                 Sequoyah Nuclear Plant steamfitter
    A federal judge ordered one individual       collected over $140,000 in federal
    to pay TVA full restitution ($13,393)        disability compensation without
    and sentenced the individual to              reporting his active participation in a
    one year at a halfway house and              trucking company owned by his wife.
    three years’ supervised release.             (From 1994 through 1996, the
                                                 company’s gross income exceeded
    A federal judge ordered another              $230,000.)
    individual to pay full restitution
    ($36,179) and sentenced him to               A jury in the Middle District of Florida
    3 months’ home detention,                    convicted the individual on five counts
    200 hours’ community service, and            of making false statements to receive
    3 years’ supervised probation.               OWCP benefits. Additionally, the jury
                                                 found the individual and his wife guilty
                                                 of conspiracy in connection with his
                                                 fraudulent claims. The two are
                                                 awaiting sentencing.




                                                    SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998           14
I N V E S T I G A T I O N S




                              The individual’s OWCP benefits were    EMPLOYEE MISCONDUCT
                              terminated, resulting in long-term     Investigation revealed two employees
                              savings to TVA of over $700,000.       accepted golf excursions and other
                                                                     gratuities from a contractor doing
                         ■    Investigation revealed a former
                                                                     business with TVA, in violation of federal
                              Colbert Steam Plant steamfitter
                                                                     ethics regulations. We also concluded
                              fraudulently obtained almost $50,000
                                                                     one of the individuals falsified travel
                              in OWCP benefits while operating
                                                                     vouchers and made false statements to
                              two businesses in his local commu-
                                                                     the OIG. (The other individual was less
                              nity, from which he earned over
                                                                     than forthcoming during our investiga-
                              $106,000.
                                                                     tion.) As a result of our reports to
                                                                     management, both employees received
                              The former employee pled guilty to
                                                                     suspensions without pay. Additionally,
                              making a false statement to obtain
                                                                     our findings prompted management to
                              OWCP benefits and is awaiting
                                                                     issue a written reminder to the contrac-
                              sentencing.
                                                                     tor, conveying the importance of ethics
                              The individual’s OWCP benefits were    regulations as they apply to TVA
                              terminated, resulting in long-term     employees.
                              savings to TVA of over $595,000.
                                                                     Investigation revealed an employee
                                                                     claimed overtime he did not work and
                                                                     also had absences from work without
                                                                     taking leave. Additionally, the employee
                                                                     provided false information to the OIG.
                                                                     As a result of our investigation, the
                                                                     individual agreed to resign his TVA
                                                                     employment and provide over $9,000 to




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                         I N V E S T I G A T I O N S




TVA to compensate for his false overtime      BACKGROUND INVESTIGATIONS
claims and unapproved absences.               At the request of TVA management,
                                              we continued to perform background
Our inquiry revealed an employee used
                                              investigations for sensitive positions.
TVA time and materials, including wood
                                              These investigations ensure employees
he took from his job site’s warehouse, to
                                              being hired for sensitive positions meet
build a “bow horse” (a device used in
                                              applicable requirements. TVA saves
building archery bows). During the
                                              money by using the OIG, rather than
course of our investigation, the individual
                                              the U.S. Office of Personnel Manage-
also made false statements to the OIG.
                                              ment, to perform these investigations.
As a result of our findings, the employee
received a suspension without pay.

Investigation revealed four coworkers
used inappropriate sexual language on
the job. Additionally, one of the employ-
ees accosted and threatened another
over a comment that was made, and
two of the employees constructed a
sexually graphic depiction in their work
area. As a result of our inquiry, all four
received suspensions without pay, their
foreman and supervisor received warning
letters, and their department manage-
ment received training and coaching in
sexual harassment issues.




                                                   SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998          16
INVESTIGATIONS




                      NUCLEAR-RELATED ISSUES

                      At TVA management’s request, we
                      investigate complaints related to
                      Section 211 of the Energy Reorganiza-
                      tion Act to provide factual and indepen-
                      dent information regarding potential
                      employee misconduct related to
                      hindering the expression of nuclear
                      safety concerns.

                      During this reporting period, we investi-
                      gated one case involving a complaint
                      filed with the Department of Labor under
                      Section 211. In addition, we completed
                      six investigations involving other nuclear-
                      related issues. In each nuclear-related
                      case we investigated, we found no
                      misconduct.




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                      I N V E S T I G A T I O N S




               The breakdown of the 81 closed investigations involving
                            TVA organizations are shown below.




                                  TVA Nuclear
Customer Service &
 Marketing Group 2%                    31%                  Transmission & Power
  Resource      6%                                          2% Supply Group
   Group
                                                                 Fossil &
                                                            9%    Hydro
                     26%                                          Group
                                                24%
    Business
    Services
                                                       Other




                  Administrative and Disciplinary Actions Since
                                October 1, 1992*
                                   Total = 414


                                    Resignations/
                                    Terminations            Suspensions/
                                                             Demotions
                                          18%         12%
             Oral/Written
              Warnings        15%

                                                       34%
                                    21%


             Reemployment                                     Counseling/
                Flagged                                  Management Techniques



                     *Prosecutive referrals are shown at Appendix 3.




                                                       SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998   18
INVESTIGATIONS




                                        All Hotline Contacts During This Reporting Period
                                                           Total = 3,410

                      Nature of Calls
                                                         OIG Business
                                                             Calls
                                                               76%                            Referrals for
                                                                                          OIG Investigations or
                                                                                         2% Audit Action
                                                                     21%

                                                       1%
                                                Referrals to TVA           Information
                                            for Management Action           Requests




                                         Referrals for OIG Investigations or Audit Action
                                                            Total = 73



                     Sources of Calls
                     Raising Concerns                               Former TVA
                                                                    Employees
                                          General                       11%
                                          Public
                                                       51%
                                                                              38%          TVA/Contractor
                                                                                             Employees




19   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                SPECIAL PROJECTS                          ■




In addition to conducting audits and         REVIEW OF TVA VISA GOLD CARD
                                             PROGRAM
investigations, our office continues to
perform special projects upon request        We reviewed selected TVA Visa Gold
by our customers, primarily the Con-         Card charges for the period from May
gress, the Board of Directors, and TVA       1996 through June 1998. This review
executive management. During this            resulted in recoveries of over $2,000
reporting period, we conducted 11 such       and two referrals for investigation. Our
projects which identified over $14.7 mil-    review also noted concerns about
lion in potential savings.                   (1) repeated payment of sales taxes on
                                             purchases, (2) compliance with per diem
TVA’S INVESTMENT RECOVERY
                                             requirements, and (3) little consistency in
OPERATIONS
                                             review and documentation methods.
At the request of TVA Procurement, we        We plan to address these concerns in a
assessed TVA’s Investment Recovery           comprehensive program review next
Center (HIRC) operations and General         fiscal year.
Investment Recovery (GIR) operations
related to (1) controls to mitigate          URANIUM MILL RECLAMATION
                                             COSTS
business risks and (2) compliance with
prescribed practices. HIRC is respon-        The Department of Energy (DOE)
sible for warehousing and handling           reached a favorable decision regarding
materials for redeployment, shared           TVA’s claim for reimbursement of
inventories, and auxiliary storage. GIR is   uranium mill tailings reclamation costs.
responsible for non-nuclear surplus          This brings to a close OIG support for
materials that are available for redeploy-   TVA’s claim effort that has been
ment or sale. We found that both             ongoing since 1994. TVA originally
organizations are meeting their missions     claimed reimbursement for more than
and are generally aware of the risk          $24.7 million in 1994, and DOE disal-
areas we identified. We suggested            lowed about $14.7 million of that
additional improvements in certain areas     claimed amount. DOE’s recent
to further reduce risks. TVA Procure-        favorable decision reinstated the
ment outlined an action plan to address      previously disallowed amount. DOE
the issues that we identified. We            cited two letters furnished by the OIG as
concurred with management’s planned          a partial basis for the favorable decision.
actions.




                                                   SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998   20
SPECIAL PROJECTS




                      FUEL USED BY RIDESHARE
                      PROGRAM REVIEWED

                      We reviewed the use of fuel cards by
                      rideshare van drivers. Our review of fuel
                      transaction information identified two
                      opportunities for management to
                      enhance the business operations of the
                      rideshare program. First, fuel transac-
                      tion data should be more complete
                      which would facilitate monitoring fuel
                      purchase irregularities. Second,
                      program monitoring activities should be
                      enhanced. TVA management is
                      implementing our suggestions.

                      SUPPLY CHAIN REDESIGN TEAM
                      PARTICIPATION

                      The OIG participated on the Supply
                      Chain Redesign team by reviewing the
                      team’s data flow diagrams. Our review
                      was limited to an overview of the
                      deliverables from an internal control and
                      audit perspective. Our concerns were
                      communicated to the team leader, and
                      the team incorporated them into the
                      final process.




21   TVA/OFFICE OF THE INSPECTOR GENERAL
■   APPENDICES




        SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
Appendix 1
Page 1 of 2

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 1998

              The following table summarizes final audit reports issued by the OIG from April 1 through September 30, 1998.

                                                                                                                 FUNDS
                DATE    REPORT                                              QUESTIONED UNSUPPORTED            TO BE PUT TO
               ISSUED   NUMBER                REPORT TITLE                     COSTS     COSTS                 BETTER USE

              4/1/98      96-028P-03     Visions Five Group -                   $30,778
                                         Contract TV-85523V

              4/8/98      98-024S        Shook & Fletcher - Preaward

              4/24/98     98-018S        Applied Decision Analysis, Inc.           36,120           $284             $58,000

              4/28/98     98-017C        Williams Union Boiler - Contract
                                         96P6A-188004 Craft Labor

              4/29/98     98-019S        Vanguard Research, Inc.                                                     155,711
                                         and Peat, Inc. - Preaward

              5/4/98      98-020S        Strategic Decisions, Inc.

              5/20/98     98-047F        Fossil (Coal-Fired) Plant Equivalent
                                         Availability Factor

              5/29/98     97-044C        Millennium Computer Technology            11,783

              5/29/98     98-005F        Tennessee Valley Procurement              18,823         14,076
                                         Center, Inc.

              6/9/98      97-066S        BTG, Inc.

              6/12/98     98-041C        Fitzgerald & Company                      5,400

              6/22/98     98-026F        Controls In Bids That Protect Sensitive
                                         Information From Disclosure to
                                         Application Users

              7/10/98     97-022S        RHR International Company                 28,970

              7/24/98     98-022C-04     Coopers & Lybrand -
                                         Chicago Office

              7/28/98     97-024C        Westinghouse Electric Corporation -       59,239
                                         Contract 92NNP-79283A

              7/28/98     97-025C        Westinghouse Electric Corporation -       33,189
                                         Contract 94NNX-112361

              8/4/98      98-036S        Aerotek Engineering Services




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                          Appendix 1
                                                                                                          Page 2 of 2

                                                                                         FUNDS
 DATE     REPORT                                          QUESTIONED UNSUPPORTED      TO BE PUT TO
ISSUED    NUMBER           REPORT TITLE                      COSTS      COSTS          BETTER USE


8/11/98   96-037C-01   Raytheon Engineers &
                       Constructors, Inc. - Contract
                       TV-82466V (3/1/92 through
                       10/31/94)

8/27/98   97-045C      The L. E. Myers Company               $232,262     $107,998

8/27/98   98-023S      Meta-Power, Inc.                       299,029          404

9/2/98    98-070C      Law Engineering and                                                  $6,200
                       Environmental Services -
                       Preaward

9/3/98    96-037C-02   Raytheon Engineers &                   919,409      589,088
                       Constructors, Inc. - Contract
                       TV-82466V (11/1/94 through
                       4/30/96)

9/14/98   98-044C      Williams Union Boiler - Contract        47,154
                       96P6A-188004 - Staff Labor

9/18/98   98-032P      Transmission and Power Supply’s
                       Overtime Policy

9/18/98   98-046C      McDaniel Fire Systems                    2,323

9/21/98   97-059C      TSW International, Inc.                 44,668

9/21/98   98-039C      Midpoint International Corporation

TOTAL     27                                                $1,769,147    $711,850        $219,911




                                                              SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
Appendix 2
Page 1 of 2


              OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
              SIX-MONTH PERIOD ENDING SEPTEMBER 30, 1998

              The following Tables I and II summarize management decisions made by TVA management on OIG
              recommendations contained in final audit reports. The tables reflect amounts which were questioned and
              recommended to be put to better use and track the disposition of these amounts through management decision.

                                                            TABLE I
                                           TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                                    NUMBER            QUESTIONED         UNSUPPORTED
                   AUDIT REPORTS                                   OF REPORTS           COSTS               COSTS


              A.   For which no management
                   decision has been made by
                   the commencement of the period                        1                $585,244             $65,854

              B.   Which were issued during
                   the reporting period                                 14                1,769,147            711,850

                   Subtotal (A + B)                                     15              $2,354,391            $777,704

              C.   For which a management
                   decision was made during
                   the reporting period                                 14                2,309,723            777,704

                   1.   Dollar value of
                        disallowed costs                                11 *              1,656,307            711,850

                   2.   Dollar value of
                        costs not disallowed                             4*                653,416              65,854

              D.   For which no management
                   decision has been made by
                   the end of the reporting
                   period                                                1                   44,668                   0

              E.   For which no management
                   decision was made within
                   six months of issuance                                0                        0                   0

              * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
                disallowed and not disallowed by management.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                             Appendix 2
                                                                                                             Page 2 of 2


                                            TABLE II
                                 FUNDS TO BE PUT TO BETTER USE

                                                     NUMBER                              FUNDS TO BE PUT
     AUDIT REPORTS                                  OF REPORTS                            TO BETTER USE


A.   For which no management
     decision has been made by
     the commencement of the period                        6                                  $6,392,592

B.   Which were issued during
     the reporting period                                  3                                     219,911

     Subtotal (A + B)                                      9                                  $6,612,503

C.   For which a management
     decision was made during
     the reporting period                                  9                                   6,612,503

     1.   Dollar value of
          disallowed costs                                 6*                                  5,168,625

     2.   Dollar value of
          costs not disallowed                             5*                                  1,443,878

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                                0                                            0

E.   For which no management
     decision was made within
     six months of issuance                                0                                            0

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
  disallowed and not disallowed by management.




                                                                SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
Appendix 3
Page 1 of 1


                  INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



                  INVESTIGATIVE REFERRALS                      SUBJECTS   RESULTS THIS PERIOD


                  Subjects referred to U.S. Attorneys             13            5   Indicted
                                                                                9   Convicted
                                                                                6   Referrals Declined

                  Subjects referred to other agencies             5       OWCP terminated benefits for
                  for investigative or administrative action              two individuals, resulting in long-
                                                                          term savings of $1,390,775.
                                    TOTAL                         18




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                            Appendix 4
                                                                                                            Page 1 of 4




November 4, 1998



TO THE UNITED STATES CONGRESS:

We are providing TVA’s Report on Final Actions on Inspector General audit recommendations, in
keeping with Section 5(b) of the Inspectors General Act of 1978, as amended.

The members of the TVA Board appreciate the work of the Inspector General’s office in helping TVA
improve its efficiency, productivity, and competitiveness as we strive to meet our goals and position TVA
to compete in the global marketplace of the 21st century.

Sincerely,




Craven Crowell



Enclosure




                                                               SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
Appendix 4
Page 2 of 4


                 TVA MANAGEMENT’S REPORT ON FINAL ACTIONS FOR THE SIX-MONTH
                 PERIOD ENDING SEPTEMBER 30, 1998

                 The following Tables I and II summarize final action taken by management on OIG audit reports. The tables
                 reflect amounts which were agreed to by management and track the disposition of these amounts through
                 final action. Table III contains the explanations by audit report for final actions not taken within one year of the
                 management decision dates.



                                                                     TABLE I
                                                               DISALLOWED COSTS

                                                                            NUMBER                              AMOUNTS
                                                                              OF                              AGREED TO BY
                      AUDIT REPORTS                                         REPORTS                           MANAGEMENT


                 A.   For which final action by
                      management had not been
                      taken by the commencement
                      of the period                                             10                               $3,003,602

                 B.   On which management decisions
                      were made during the reporting
                      period                                                    14                                 1,656,307

                      Subtotal (A + B)                                          24                               $4,659,909

                 C.   For which final action was
                      taken by management during the
                      reporting period                                          12                                   300,359

                      1.   Amounts that were
                           recovered by management                              12 *                                 110,276

                      2.   Amounts that were not
                           recovered by management                               6*                                  190,083

                 D.   For which management has
                      taken no final action by
                      the end of the reporting period                           12                                 4,359,550

                 * The total number of reports differs from the sum of C.1 and C.2 when a final audit action includes both
                   amounts recovered and amounts not recovered for a single audit report.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                            Appendix 4
                                                                                                             Page 3 of 4


                                             TABLE II
                                RECOMMENDATIONS THAT FUNDS BE PUT
                                         TO BETTER USE

                                                     NUMBER                            AMOUNTS
                                                        OF                           AGREED TO BY
     AUDIT REPORTS                                   REPORTS                         MANAGEMENT


A.   For which final action by
     management had not been
     taken by the commencement
     of the period                                        1                            $1,408,000

B.   On which management decisions
     were made during the reporting
     period                                                9                             5,168,625

     Subtotal (A + B)                                    10                             $6,576,625

C.   For which final action was
     taken by management during
     the reporting period                                  9                             5,168,625

     1.   Dollar value of
          recommendations
          implemented by
          management                                       9*                              135,533

     2.   Dollar value of
          recommendations
          not implemented by
          management                                       5*                            5,033,092

D.   For which management has
     taken no final action by
     the end of the reporting period                       1                             1,408,000

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both
  recommendations implemented and recommendations not implemented for a single audit report.




                                                                SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
Appendix 4
Page 4 of 4



                                                            TABLE III
                                            EXPLANATIONS FOR FINAL ACTIONS NOT TAKEN

                    AUDIT REPORT              DATE          DISALLOWED          FUNDS PUT TO         EXPLANATION FINAL
                      NUMBER                 ISSUED            COSTS             BETTER USE          ACTION NOT TAKEN


              Review of Environmental          1/3/97            N/A                  N/A         TVA has finalized a new
              Restricted Awards List                                                              procedure which will be issued
              Contracting Process                                                                 to all organizations.
              96-056P


              Review of Contractor’s           6/6/96        $1,073,291           $1,408,000      TVA is assessing options.
              Financial Conditions
              96-035P

              N/A - Not Applicable
              NOTE: This table excludes two reports in judicial appeal according to the reporting guidelines of the
              Inspector General Act.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                  Appendix 5
                                                                                                                  Page 1 of 1



OIG REPORTING REQUIREMENTS

Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
indicated below.

Section 4(a)(2)       Review of Legislation and Regulations              *

Section 5(a)(1)       Significant Problems, Abuses, and                  Pages 5-21
                      Deficiencies

Section 5(a)(2)       Recommendations With Respect to                    Pages 5-21
                      Significant Problems, Abuses, and
                      Deficiencies

Section 5(a)(3)       Recommendations Described in Previous              None
                      Semiannual Reports on Which Corrective
                      Action Has Not Been Completed

Section 5(a)(4)       Matters Referred to Prosecutive                    Appendix 3
                      Authorities and the Prosecutions
                      and Convictions That Have Resulted

Sections 5(a)(5)      Summary of Instances Where Information             **
and 6(b)(2)           Was Refused

Section 5(a)(6)       Listing of Audit Reports                           Appendix 1

Section 5(a)(7)       Summary of Particularly Significant Reports        Pages 8-21

Section 5(a)(8)       Status of Management Decisions for                 Appendix 2
                      Audit Reports Containing Questioned Costs

Section 5(a)(9)       Status of Management Decisions for                 Appendix 2
                      Audit Reports Containing Recommendations
                      That Funds Be Put to Better Use

Section 5(a)(10)      Summary of Unresolved Audit Reports                 Page 11
                      Issued Prior to the Beginning of the
                      Reporting Period

Section 5(a)(11)      Significant Revised Management Decisions           ***

Section 5(a)(12)      Significant Management Decisions With              ****
                      Which the Inspector General Disagreed

    *   There were no significant legislation or regulations reviewed during this reporting period.
   **   There were no instances where information or assistance was unreasonably refused or not provided.
  ***   There were no significant revised management decisions.
 ****   There were no significant management decisions with which the Inspector General disagreed.




                                                                    SEMIANNUAL REPORT/APRIL 1, 1998 ~ SEPTEMBER 30, 1998
                                                HIGHLIGHTS

                                                                FOR SEMIANNUAL REPORTING PERIODS
                                                    SEPT 30,       MAR 31,     SEPT 30,      MAR 31,      SEPT 30,
                                                      1998          1998        1997          1997         1996


       ANNUAL BUDGET (In Millions of Dollars)          7.3            7.3        7.3               7.3       7.3
       CURRENT STAFFING                                83             81          83               86        94


       AUDITS & SPECIAL PROJECTS
       AUDITS IN PROGRESS
       Carried Forward                                   46            40          34            41           42
       Started                                           34            50          46            29           50
       Canceled                                        (13)          (14)        (10)          (14)           (6)
       Completed                                       (27)          (30)        (30)          (22)         (45)
       In Progress at End of Reporting Period            40            46          40            34           41


       AUDIT RESULTS (Thousands)
       Questioned Costs                            $1,769          $1,191      $552           $602        $2,555
       Disallowed by TVA                            1,656             636       530            542         2,756
       Recovered by TVA                               110           2,029       434            434         1,167


       Funds to Be Put to Better Use                  $220         $2,359    $10,585        $1,671       $28,276
       Agreed to by TVA                              5,169            696      5,707         5,262        31,576
       Realized by TVA                                 136            696      1,078         4,494        22,950


       SPECIAL PROJECT RESULTS
       Completed                                        11            13          24               15        19
       Cost Savings Identified/
          Realized (Thousands)                    $14,704           $843      $5,700       $38,200        $3,000


       INVESTIGATIONS
       INVESTIGATION CASELOAD
       Carried Forward                                 142 *         139 *       157 *         157 *        153 *
       Opened                                           78            78          56            96          110
       Closed                                           81            74          77            93          105
       In Progress at End of Reporting Period          140           144         139           160          158


       INVESTIGATIVE RESULTS (Thousands)
       Recoveries                                     $284          $946       $481         $2,439        $2,364
       Savings                                       3,388           645          9          2,377         3,374


       ADMINISTRATIVE AND
       DISCIPLINARY ACTIONS
       Recommended (# of Cases)                         20            24          12               21        24
       Actions Taken (# of Subjects)                    22            12          14               15        17
       Counseling/Management
          Techniques (# of Cases)                        8 **


       PROSECUTIVE ACTIVITIES (# of Subjects)
       Referred                                         12            11          15               22        17
       Indicted                                          5             2           7                1         1
       Convicted                                         9             6           3                8        12

       * Adjusted from previous semiannual reports.
       ** Category added to Highlights this reporting period.
TVA/OFFICE OF THE INSPECTOR GENERAL
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY

                   400 WEST SUMMIT HILL DRIVE

                 KNOXVILLE, TENNESSEE 37902-1499
